NO. 21-143
IN THE

Supreme Court of the United States
RAYMOND RODRÍGUEZ-RIVERA,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEALS FOR THE FIRST CIRCUIT

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify
that the Brief of the Massachusetts Association of Criminal Defense Lawyers in Support of Raymond
RodrÍguez-Rivera’s Petition for a Writ of Certiorari in
case No. 21-143 contains 5946 words, excluding parts of
the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is
true and correct.
Executed on the 31st day of August, 2021.
_________
/S/CHRISTOPHER ESCOBEDO HART
CHRISTOPHER ESCOBEDO HART
Counsel of Record
ANTHONY D. MIRENDA
PETER ELLIS
LAURA D. GRADEL
FOLEY HOAG LLP
Seaport West
155 Seaport Boulevard
Boston, MA 02210
(617) 832-1000
ADM@foleyhoag.com
Counsel for Amicus Curiae
Dated: August 31, 2021

